                                                                             Report No. DODIG-2014-104



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 3, 2014




                     Global Combat Support
                     System–Army Did Not Comply
                     With Treasury and DoD Financial
                     Reporting Requirements




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              Results in Brief
                              Global Combat Support System–Army Did
                              Not Comply With Treasury and DoD Financial
                              Reporting Requirements


September 3, 2014                               Finding (cont’d)

Objective                                       Although Army personnel have been responsive to correcting
                                                deficiencies identified during the audit, the Army has spent
We determined whether the Army fielded          $725.7 million on a system that still has significant obstacles
the Global Combat Support System–Army           to overcome to comply with the Federal Financial Management
(GCSS–Army) with the proper functionality       Improvement Act and meet the FYs 2014 and 2017 auditability
to provide reliable financial information and   deadlines. This includes posting logic issues that resulted
support audit readiness requirements.           in abnormal balances of $703.7 million, or 23.5 percent, of the
                                                $3.0 billion GCSS–Army fourth quarter FY 2013 Trial Balance.
Finding
Office of the Assistant Secretary of the Army   Recommendations
(Financial Management and Comptroller)          The Under Secretary of Defense (Comptroller)/Chief
and GCSS–Army Product Management Office         Financial Officer, DoD, in coordination with the DoD Deputy
personnel did not field GCCS­–Army with the     Chief Management Officer, should develop and implement
proper functionality to comply with Treasury    procedures to validate that GCSS–Army complies with
and DoD guidance, which is necessary to         applicable guidance and internal control standards. They
provide reliable financial information and      should also publish account attribute, chart of account, and
support for audit readiness requirements.       posting logic guidance by the beginning of each fiscal year,
                                                with a deadline for system implementation. The Assistant
This occurred because DoD and Army
                                                Secretary of the Army (Financial Management and
management did not have adequate controls,
                                                Comptroller), in coordination with the GCSS–Army Product
including procedures and annual reviews,
                                                Manager, should formalize and expand the annual review
in place to ensure GCSS–Army compliance
                                                process of GCSS–Army to include a review of the account
with Treasury and DoD guidance. In
                                                attributes, chart of accounts, and posting logic and develop
addition, the Office of the Under Secretary
                                                an automated functionality for demonstrating GCSS–Army
of Defense (Comptroller)/Chief Financial
                                                account postings.
Officer, DoD, and Office of the Deputy Chief
Management Officer personnel did not
provide adequate account attribute, chart       Management Comments and
of account, or posting logic guidance. This
occurred because they did not have formal
                                                Our Response
processes for reviewing and ensuring that       We request that the Under Secretary of Defense (Comptroller)/
DoD guidance is complete and consistent         Chief Financial Officer, DoD, provide additional comments
and aligns with Treasury guidance.              to Recommendations 1.a.ii, 1.a.iii, and 1.c, and the Assistant
                                                Secretary of the Army (Financial Management and Comptroller)
                                                provide additional comments on Recommendations 2.b and 2.f.
                                                Please see the Recommendations Table on the back of this page.
Visit us at www.dodig.mil


                                                                   DODIG-2014-104 (Project No. D2013-D000FL-0163.000) │ i
                   Recommendations Table
                                                                  Recommendations Requiring          No additional
                                         Management                      Comment                   Comments Required
                     Under Secretary of Defense (Comptroller)/    1.a.ii, 1.a.iii, 1.c        1.a.i, 1.b.i, 1.b.ii, 1.b.iii, 1.d
                     Chief Financial Officer, DoD
                     Assistant Secretary of the Army (Financial   2.b, 2.f                    2.a.i, 2.a.ii, 2.a.iii, 2.c, 2.d, 2.e
                     Management and Comptroller)

                   Please provide comments by October 3, 2014.




ii │ Project No. D2013-D000FL-0163.000
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                               September 3, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
           		    CHIEF FINANCIAL OFFICER, DOD
           	   DEPARTMENT OF DEFENSE DEPUTY CHIEF MANAGEMENT OFFICER
           	   AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Global Combat Support System–Army Did Not Comply With Treasury and DoD
	        Financial Reporting Requirements (Report No. DODIG-2014-104)

We are providing this report for your review and comment. The Army did not ensure
Global Combat Support System–Army complied with Treasury and DoD guidance, which
is necessary for providing reliable financial information and supporting audit readiness
requirements. Although Army personnel have been responsive to correcting deficiencies
identified during the audit, the Army has spent $725.7 million on a system that has
significant obstacles to overcome to comply with the Federal Financial Management
Improvement Act and meet the FYs 2014 and 2017 auditability deadlines. This includes
posting logic issues that resulted in abnormal balances of $703.7 million, or 23.5 percent, of the
$3.0 billion GCSS–Army fourth quarter FY 2013 Trial Balance.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer,
DoD, on Recommendations 1.a.i, 1.b, and 1.d, and from Deputy Assistant Secretary of the
Army (Financial Operations) on Recommendations 2.a.i, 2.a.ii, 2.a.iii, 2.c, 2.d, and 2.e,
addressed all specifics of the recommendations and conformed to the requirements of
DoD Directive 7650.3; therefore, we do not require additional comments. We request
that the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, provide
additional comments on Recommendations 1.a.ii, 1.a.iii, and 1.c, and the Assistant Secretary
of the Army (Financial Management and Comptroller) provide additional comments on
Recommendations 2.b and 2.f, by October 3, 2014.




                                                                                           DODIG-2014-104 │ iii
                  Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of
                  your comments must have the actual signature of the authorizing official for your
                  organization. We cannot accept the /Signed/ symbol in place of the actual signature.
                  If you arrange to send classified comments electronically, you must send them over
                  the SECRET Internet Protocol Router Network (SIPRNET).

                  We appreciate the courtesies extended to the staff. Please direct questions to me at
                  (703) 601-5945.




                  	                                              Lorin T. Venable, CPA
                  	                                              Assistant Inspector General
                  	                                              Financial Management and Reporting




iv │ DODIG-2014-104
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________4

Finding. Insufficient Implementation of Treasury
and DoD Financial Reporting Requirements______________________5
Army Did Not Ensure Compliance with Treasury and DoD Financial Requirements ______6
Inadequate System Controls__________________________________________________________________ 19
Inadequate DoD Guidance ____________________________________________________________________ 20
System Might Not Produce Reliable Information or Correct Army’s
    Material Weakness ________________________________________________________________________ 21
Management Comments on the Finding and Our Response _______________________________ 22
Recommendations, Management Comments, and Our Response__________________________ 22

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 29
    Use of Computer-Processed Data_ _______________________________________________________ 30
    Use of Technical Assistance_______________________________________________________________ 30
Appendix B. Prior Coverage __________________________________________________________________ 31
Appendix C. Army Comments on Findings and Our Response_____________________________ 34

Management Comments
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD__________________ 38
Assistant Secretary of the Army (Financial Management and Comptroller)______________ 41

Acronyms and Abbreviations______________________________________________ 50




                                                                                                       DODIG-2014-104 │ v
                                                                                                                                 Introduction




Introduction
Objective
Our objective was to determine whether the Army fielded the Global Combat
Support System–Army (GCSS–Army) with the proper functionality to provide reliable
financial information and support audit readiness requirements.                                       See Appendix  A
for Scope and Methodology and Appendix B for Prior Audit Coverage.


Background
The Army initiated development of GCSS–Army in 1997.                                         In 2003, the program
changed from custom software to a web-based SAP Enterprise Resource Planning    1


(ERP) system.               According to Army officials, the Army invested approximately
$95  million before adopting the ERP approach.                                      The Army plans to replace
13 legacy systems with GCSS–Army, including the Standard Army Retail Supply
System and the Standard Army Maintenance System–Enhanced.                                                     GCSS–Army
contains supply, maintenance, property, and tactical finance functionalities.                                            As of
June 2014, the Army has fielded the system to 122 units.                                             When fielding is
complete in September 2017, there will be an estimated 160,000 GCSS–Army users
across 343 units.                According to an Army Program Executive Office Enterprise
Information Systems (PEO EIS) representative, as of February 2014, the Army
had spent $725.7  million on GCSS–Army and plans to spend a total of
$4.3  billion2. GCSS–Army Product Management Office (the PMO) personnel estimated
the tactical finance functionality will cost approximately $300 million.


Financial Reporting Requirements
Public Law 101-576, “Chief Financial Officers Act of 1990,” November  15, 1990,
(the CFO Act) requires each executive agency to prepare and submit auditable
financial statements annually. Public Law 104-208, “Federal Financial Management
Improvement Act of 1996,” September 30, 1996, (FFMIA) requires agencies to
“implement and maintain financial management systems that comply substantially
with Federal financial management systems requirements [and] applicable Federal
accounting standards.”                 Public Law  111-84, “National Defense Authorization Act
for Fiscal Year 2010,” section 1003, “Audit readiness of financial statements of


	1	
      SAP is a company that develops ERP systems.
	2	
      The $4.3 billion is based on the November 1, 2012, Economic Analysis for GCSS–Army and includes $3.0 billion for
      GCSS–Army, $938.7 million for Army Enterprise System Integration Program, and $341.1 million for Standard Army
      Management Information System phase out.




                                                                                                                             DODIG-2014-104 │ 1
Introduction



                 the Department of Defense,” October  28, 2009, requires DoD to develop a plan
                 to ensure that its financial statements are validated as ready for audit no later
                 than September  30, 2017.                       In addition, Public Law  112-81, “National Defense
                 Authorization Act for Fiscal Year 2012,” section 1003, “Additional requirements
                 relating to the development of the Financial Improvement and Audit Readiness Plan,”
                 December 31, 2011, requires each Military Department to develop a plan to validate
                 the Statement of Budgetary Resources for audit by no later than September  30, 2014.

                 The Treasury Financial Management Service publishes the U.S. Government Standard
                 General Ledger (USSGL), which provides a uniform chart of accounts (COA) and
                 guidance standardizing Federal agency accounting, including USSGL transaction and
                 account attribute3 guidance. All DoD accounting systems must use the USSGL. DoD
                 implemented the Standard Financial Information Structure (SFIS) account attributes
                 to standardize financial reporting and comply with the USSGL at the transaction
                 level.       DoD annually publishes the DoD Standard Chart of Accounts (SCOA) and
                 the DoD USSGL Transaction Library (the Transaction Library).                                             The DoD SCOA
                 consists of USSGL accounts and DoD account extensions to provide the detail
                 required for budgetary, financial, and management reports. The Transaction Library
                 breaks down the USSGL transaction guidance into combinations of specific accounts4
                 and assigns each combination a DoD Transaction Code (DTC).                                                 GCSS–Army is
                 required to use SFIS account attributes and process transactions using the DoD SCOA
                 according to the defined uses and posting logic in the Transaction Library.


                 Flow of Information for Financial Reporting
                 GCSS–Army maintains a ledger for Army tactical units. GCSS–Army financial
                 information flows through the General Fund Enterprise Business System (GFEBS),
                 Defense Departmental Reporting System–Budgetary (DDRS–B), and DDRS–Audited
                 Financial Statements (DDRS–AFS), and the Army reports it on the Army General
                 Fund (AGF) financial statements.                        Figure  1 illustrates the flow of information for
                 financial reporting from GCSS–Army to the AGF financial statements.




                 	 3	
                        Account attributes describe an account and capture the information necessary to meet specific external reporting
                        requirements, including the financial statements.
                 	 4	
                        These accounts are commonly referred to as General Ledger Accounts.




2 │ DODIG-2014-104
      GCSS–Army maintains a ledger for Army tactical units. GCSS–Army financial
      information flows through the General Fund Enterprise Business System (GFEBS),
      Defense Departmental Reporting System–Budgetary (DDRS–B), and DDRS–Audited                                      Introduction
      Financial Statements (DDRS–AFS), and the Army reports it on the Army General Fund
      (AGF) financial statements. Figure 1 illustrates the flow of information for financial
      reporting from GCSS–Army to the AGF financial statements.
Figure 1. Flow of GCSS–Army Information for Financial Reporting
                  Figure 1. Flow of GCSS–Army Information for Financial Reporting

                                                                                                  AGF Financial
           GCSS–Army                GFEBS                DDRS–B              DDRS–AFS
                                                                                                   Statements



    System-Related Responsibilities
System-Related  Responsibilities
    DoD Responsibilities
DoD Responsibilities
      The CFO Act created the Under Secretary of Defense (Comptroller)/Chief Financial
The CFO    Act DoD
      Officer,  created  the Underposition.
                    (USD[C]/CFO)       Secretary     of Defense
                                                 It also            (Comptroller)/Chief
                                                          requires that                     Financial
                                                                        the USD(C)/CFO oversee    all
      financial management   activities relating  to the  programs   and operations
Officer, DoD (USD[C]/CFO) position. It requires that the USD(C)/CFO oversee         of the agency;
      direct, manage, and provide policy guidance and oversight of agency financial
all financial
      managementmanagement      activities and
                    personnel, activities,  relating     to the
                                               operations;         programs
                                                              and develop       and operations
                                                                            and maintain           of
                                                                                         an integrated
      agency accounting
the agency;               and financial
               direct, manage,           management
                                  and provide            system,
                                                    policy        including
                                                             guidance    andfinancial reporting
                                                                               oversight        and
                                                                                           of agency
financial management personnel, activities, and operations; and develop and
maintain
     3
         an integrated agency accounting and financial management system,
          Account attributes describe an account and capture the information necessary to meet specific external
including   financial
      reporting         reporting
                requirements, includingand   internal
                                        the financial     controls, which complies with applicable
                                                      statements.
      4
      These accounts are commonly referred to as General Ledger Accounts.
accounting  principles, standards, and requirements and internal control standards.
The CFO Act also requires
                        DRAFTthis financial
                                      FOR management  system
                                            OFFICIAL USE ONLYto provide for complete,
reliable, consistent, and timely information. 2

DoD Financial Management Regulation (FMR), volume  1, chapter  1, “Chief
Financial Officer of the Department of Defense,” June 2010, assigns the USD(C)/CFO
with responsibility to “oversee all financial management activities relating to the
programs and operations of DoD” and requires the USD(C)/CFO “to ensure
compliance throughout the DoD with applicable accounting policy, standards and
principles,” to include SFIS. It also requires USD(C)/CFO to develop and maintain
a compliant integrated agency accounting and financial management system that
complies with applicable accounting requirements and provides complete, reliable,
consistent, and timely information.                  An agency financial management system is
defined as the total of agency financial systems, both manual and automated, for
planning, budget formulation and execution, program, and administrative accounting;
as well as all other systems for recording and classifying financial data and reporting
financial management information.                    Finally, DoD FMR, volume  6A, chapter  2,
“Financial Roles and Responsibilities,” August 2011, further requires the Office of
the USD(C)/CFO (OUSD[C]/CFO) to establish and approve “schedules required to
meet financial reporting requirements and deadlines.” The “Financial Improvement
and Audit Readiness Guidance,” November 2013, assigns Office of the Deputy Chief
Management Officer (ODCMO) with the responsibility of assisting with measuring
financial management results and coordinating DoD resources in support of
OUSD(C)/CFO financial improvement efforts.


                                                                                                                   DODIG-2014-104 │ 3
Introduction



                 Army Responsibilities
                 The Office of the Assistant Secretary of the Army (Financial Management and
                 Comptroller) (OASA[FM&C]) is responsible for systems pertaining to Army finance
                 and accounting operations.        Army PEO EIS provides information management
                 systems to the Army and develops, acquires, and deploys these systems. The PMO,
                 an Army PEO EIS component, is responsible for fielding GCSS–Army. OASA(FM&C)
                 and the PMO are jointly responsible for ensuring GCSS–Army is compliant with
                 Treasury and DoD guidance. However, PMO personnel stated they are required to
                 coordinate all GCSS–Army changes with GFEBS, as part of the Federated Approach
                 that is intended to standardize transactional input and business processes across the
                 Army ERPs and enable common cost management activities.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May  30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls.              We identified
                 internal control weaknesses that occurred because DoD and Army management
                 did not establish procedures and perform annual reviews to ensure GCSS–Army
                 compliance with Treasury and DoD guidance. We will provide a copy of the report to
                 the   senior   officials   responsible   for   internal   controls   in   the   DoD   and
                 Department of the Army.




4 │ DODIG-2014-104
                                                                                                                         Finding




Finding
Insufficient Implementation of Treasury and
DoD Financial Reporting Requirements

OASA(FM&C) and PMO personnel did not field GCCS–Army with the proper
functionality to comply with Treasury and DoD guidance, which is necessary to
provide reliable financial information and support for audit readiness requirements.
Specifically, GCSS–Army did not:

               •	 comply with Treasury guidance for 5 of 15  account attributes tested,
                  equating to approximately $1.8 billion5 of financial impact;

               •	 comply with DoD guidance for defining debit or credit balances6 of
                  16 accounts with a net balance of $274.7 million7;

               •	 timely comply with the FY 2013 DoD SCOA changes;

               •	 define its posting logic;

               •	 include posting logic necessary to attain the same results as the
                  Transaction Library; or

               •	 correctly post transactions for three accounts affecting the Statement of
                  Budgetary Resources.

This occurred because DoD and Army management did not have adequate controls,
including procedures and annual reviews, in place to ensure GCSS–Army compliance
with Treasury and DoD guidance.

In addition, OUSD(C)/CFO and ODCMO personnel did not provide adequate account
attribute, COA, or posting logic guidance. This occurred because they did not have
formal processes for reviewing and ensuring that DoD guidance is complete and
consistent and aligns with Treasury guidance.

Although Army personnel have been responsive to correcting deficiencies identified
during the audit, the Army has spent $725.7  million on a system that still has
significant obstacles to overcome to comply with FFMIA and meet the FYs  2014


	5	
       Dollar values associated with Treasury and DoD compliance are as of the end of third quarter, FY 2013.
	6	
       Commonly referred to by the guidance as a “Normal Balance Indicator.”
	 7	
       Dollar values are associated with four accounts that contained activity.



                                                                                                                DODIG-2014-104 │ 5
Finding




                 and 2017 auditability deadlines.                         In addition, incorrect posting logic for three
                 budgetary accounts, which the Army uses to prepare the Statement of Budgetary
                 Resources, resulted in abnormal balances8 of $703.7  million, or 23.5  percent, of the
                 $3.0 billion GCSS–Army fourth quarter FY 2013 Trial Balance.


                 Army Did Not Ensure Compliance with Treasury
                 and DoD Financial Requirements
                 OASA(FM&C) and PMO personnel did not field GCCS–Army with the proper
                 functionality to comply with Treasury and DoD guidance, which is necessary to provide
                 reliable financial information and support audit readiness requirements.


                 Account Attributes Not Compliant With Treasury Guidance
                 OASA(FM&C) and PMO personnel did not ensure GCSS–Army complied with
                 Treasury guidance for 5 of 15  account attributes tested, equating to approximately
                 $1.8  billion of financial impact. According to the “U.S. Government Standard General
                 Ledger Treasury Financial Manual [TFM] Supplement No. S2,” August 2012, account
                 attributes identify detailed account characteristics used to meet specific reporting
                 requirements. The Supplement identifies the range of valid inputs for an account
                 attribute.          GCSS–Army must comply with these account attributes to ensure it
                 processes transactions in the same manner as other DoD and Army ERP systems.

                                                     The      five     noncompliant            account        attributes     represented
                                                         approximately           1.6  million          unpopulated         attributes   on
                                   The
                                                            transactions with approximately $1.8  billion of financial
                           GCSS–Army
                        “Federal Indicator”                  impact. For example, the GCSS–Army “Federal Indicator”
                         account attribute                   account attribute was not compliant with Treasury
                        was not compliant                    guidance.          Treasury guidance required the “Federal
                          with Treasury
                             guidance.                      Indicator” account attribute to be populated when using
                                                          account 3102. However, GCSS–Army did not consistently
                                                      populate the “Federal Indicator” account attribute for
                                             transactions using this account. The Army needs to populate the
                 “Federal Indicator” account attribute required by Treasury guidance to ensure the accurate
                 reporting of trading partner information for transactions that occur between two parties
                 within the Government, which has been a long-standing material weakness reported in
                 the Army Annual Statement of Assurance. Table 1 identifies the five noncompliant
                 account attributes along with their financial impact.


                 	 8	
                        Abnormal balances are those in which an account’s normal balance (debit or credit) is reversed.


6 │ DODIG-2014-104
                                                                                                                  Finding



Table 1. Noncompliance With Treasury Guidance
                                     No. of Noncompliant Account
       Account Attribute                                                   Amount (millions)
                                            Attribute Values
 Apportionment Category                           15,102                        $    30.8
 Custodial Indicator                             607,481                            504.7
 Prior Period Adjustment                         960,322                            905.5
 Federal Indicator                                   842                            184.1
 Trading Partner                                     909                            184.4
   Total                                       1,584,656                        $ 1,809.5

Note: DoD Office of Inspector General (DoD OIG) auditors verified that the transactions reviewed
contained a compliant account attribute value per Treasury guidance and did not determine the
correctness of the account attribute values in the transactions. In addition, some of the transactions
reviewed were missing multiple account attribute values.

Source: Based on GCSS–Army transactions in the first three quarters of FY 2013

PMO personnel provided a system change request, which they indicated would
correct four account attributes in July 2014.  In addition, PMO personnel provided
another system change request they indicated would correct the remaining account
attribute (Prior Period Adjustment) in late FY  2015.  PMO personnel stated that,
as part of the Federated Approach, they made the decision to delay implementation
of this system change request until after the GFEBS Program Management Office
implemented a corresponding change to GFEBS in
FY  2015.    PMO personnel also explained that when
they were required to submit the funding request                                The
                                                                           PMO personnel
to implement Treasury and DoD guidance timely,
                                                                      subsequently provided
they could not predict how much it would                              an SFIS implementation
cost to make GCSS–Army comply with future                               strategy to become
requirements.        While     the    PMO       personnel             compliant with FY 2013
                                                                          Treasury account
subsequently provided an SFIS implementation                             attribute guidance
strategy to become compliant with FY  2013                                 during FY 2015
Treasury account attribute guidance during FY  2015,
implementing changes almost 3 years after the fiscal
year started is not timely.

OASA(FM&C) is responsible for ensuring GCSS–Army account attribute compliance,
while the PMO is responsible for implementing OASA(FM&C) account attribute
guidance.      However, OASA(FM&C) does not have a process to ensure account
attribute compliance with Treasury and DoD guidance. The Assistant Secretary of
the Army (Financial Management and Comptroller) (ASA[FM&C]), in coordination




                                                                                                         DODIG-2014-104 │ 7
Finding



                 with the GCSS–Army Product Manager, should formalize and implement an annual
                 review process to ensure the timely compliance of GCSS–Army with account
                 attribute guidance.

                 Furthermore, the FFMIA, CFO Act, and DoD FMR address OUSD(C)/CFO’s
                 responsibility for financial systems, which includes GCSS–Army; and DoD FMR,
                 volume  1, chapter  1, addresses OUSD(C)/CFO’s responsibility for ensuring
                 GCSS–Army complies with accounting policy, standards, and principles and
                 internal control standards. Based on this guidance, adequate oversight would include
                 establishing controls to validate GCSS–Army account attribute compliance. Additionally,
                 Financial          Improvement            and       Audit       Readiness         Guidance         states      ODCMO
                 is responsible for coordinating resources to support OUSD(C)/CFO’s financial
                                                        improvement efforts. Currently, ODCMO’s SFIS validation
                                                               process relies on PMO personnel for notification
                                                                    that a system change request9 has occurred,
                                   DoD FMR,
                               volume 1, chapter                       signifying the need for ODCMO personnel to
                            1, addresses OUSD(C)/                       revalidate         GCSS–Army             compliance          with
                            CFO’s responsibility for                     established        guidance,       to    include      Treasury
                        ensuring GCSS–Army complies
                          with accounting principles,                    account attribute guidance. The USD(C)/CFO,
                         standards, and requirements                     in    coordination         with      the     Deputy        Chief
                             and internal control                       Management Officer (DCMO), should develop and
                                   standards.
                                                                      implement a process for the annual validation of
                                                                   GCSS–Army account attribute compliance with
                                                             Treasury guidance.


                 Account Inconsistencies With DoD Guidance
                 OASA(FM&C) and PMO personnel did not ensure GCSS–Army complied with DoD
                 guidance for defining debit or credit balances of 16 accounts, affecting four accounts
                 with a balance of $274.7  million. The GCSS–Army Normal Balance Indicators (NBIs)
                 for 16  accounts did not match those prescribed in the FY  2013 DoD SCOA. These
                 NBIs identified the normal condition of the account balances, such as debit or
                 credit, in the GCSS–Army COA and should have matched the NBIs in the
                 FY  2013 DoD SCOA.                 GCSS–Army can identify abnormal balances to system users
                 in instances where an account balance does not match the NBI.




                 	 9	
                        A system change request documents a formal request for a change to an automated information system. The change may
                        be for either a “fix” to a problem or an enhancement.




8 │ DODIG-2014-104
                                                                                             Finding



For example, according to the GCSS–Army COA, account 1010.0120, “Fund Balance With
Treasury-Funds Disbursed,” had an NBI of debit; however, the FY  2013
DoD SCOA NBI for this account was a credit.         To demonstrate the significance
of this incorrect NBI, a debit balance in account 1010.0120 would understate
disbursements and overstate available Army funds.         This NBI functionality is
vital in determining whether accounts contain the proper balances.         However,
because the NBI for account 1010.0120 did not match the DoD SCOA,
GCSS–Army incorrectly identified the balance for this account, $268.5  million in
FY 2013, as abnormal.

While the previous example depicts an instance of GCSS–Army incorrectly
identifying normal balances as abnormal balances, in other instances GCSS–Army
would not identify true abnormal balances.       For example, if the
1010.0120 account had a debit balance when, according
to the FY  2013 DoD SCOA, it should have had a credit
                                                                   Without
balance, GCSS–Army would not have detected this                 the ability to
abnormal balance because the incorrect GCSS–Army             accurately identify
COA NBI (debit) would have matched the account            abnormal balances, PMO
                                                          personnel cannot ensure
balance (debit).    Without the ability to accurately
                                                          GCSS–Army is providing
identify abnormal balances, PMO personnel cannot              reliable financial
ensure GCSS–Army is providing reliable financial                 information
information to the Army and DoD financial statements.

PMO personnel corrected 14 of the 16 accounts with NBIs that did not align with
DoD guidance.      They explained that they did not correct the remaining accounts
because GCSS–Army needed to remain aligned with GFEBS as part of the Federated
Approach in which the Army integrated financial reporting across the two systems.

OASA(FM&C) is responsible for Army finance and accounting operations, which
includes ensuring GCSS–Army complies with the DoD SCOA.           For OASA(FM&C)
to fulfill its responsibility, OASA(FM&C) personnel issue GCSS–Army-specific
recommended changes to the PMO.         While this process includes a review of the
GCSS–Army COA, the review process does not include the review of NBIs in
GCSS–Army. The ASA(FM&C), in coordination with the GCSS–Army Product Manager,
should formalize and expand the annual review process for GCSS–Army to ensure
timely compliance with all COA guidance.




                                                                                    DODIG-2014-104 │ 9
Finding



                 Chart of Accounts Needs to Timely Comply With DoD Changes
                 OASA(FM&C) and PMO personnel did not update GCSS–Army timely to implement
                 the FY  2013 DoD SCOA changes.             PMO personnel did not implement the
                 FY  2013 DoD SCOA changes in GCSS–Army until approximately 10 months
                 after OUSD(C)/CFO published it.          OUSD(C)/CFO published the DoD SCOA on
                 November  15, 2012, and OASA(FM&C) personnel provided implementing guidance
                 to the PMO on January  7, 2013.        However, PMO personnel did not incorporate
                 these changes into the system until August 30, 2013. While PMO personnel eventually
                 implemented the recommended changes, three  accounts contained erroneously
                 posted transactions totaling $1.3 million for the first three quarters of FY 2013.

                 OASA(FM&C) is responsible for Army finance and accounting operations, and the
                 PMO is responsible for implementing OASA(FM&C) COA guidance in a timely
                 manner.     However, OASA(FM&C) does not currently provide a deadline for
                 GCSS–Army implementation of the annual DoD guidance. The ASA(FM&C),
                 in coordination with the GCSS–Army Product Manager, should formalize and
                 implement an annual review process that meets the DoD compliance deadline.

                 The FFMIA, CFO Act, and DoD FMR address OUSD(C)/CFO’s responsibility for
                 financial systems, including GCSS–Army; and DoD FMR, volume  6A, chapter  2,
                 addresses OUSD(C)/CFO’s responsibility for the “establishment and approval of
                                    schedules required to meet financial reporting requirements and
                                         deadlines.” In addition, ODCMO publishes annual guidance to
                            The
                                           support OUSD(C)/CFO’s financial improvement efforts. The
                          current
                       version of the       current version of the guidance does not impose an
                       guidance does         implementation deadline.       To ensure timely compliance
                       not impose an         with the DoD SCOA, the USD(C)/CFO, in coordination with
                      implementation
                         deadline.          the   DCMO,    should    publish   a   deadline   for     system
                                           implementation of the SFIS account attributes, DoD SCOA,
                                        and Transaction Library guidance.

                 In addition, OUSD(C)/CFO and ODCMO did not publish the FY  2013 and FY  2014
                 DoD SCOA guidance in sufficient time to allow OASA(FM&C) to provide recommended
                 GCSS–Army changes for the PMO to implement. The FY  2013 DoD SCOA guidance
                 was published on November 15, 2012, 45 days after the beginning of FY  2013,
                 and the FY  2014 DoD SCOA guidance was published on April 11, 2014, 192 days




10 │ DODIG-2014-104
                                                                                                                             Finding



after the beginning of FY  2014.                      To ensure OASA(FM&C) and PMO personnel can
comply with guidance in a timely manner, the USD(C)/CFO, in coordination with
the DCMO, should publish annual SFIS account attributes, DoD SCOA, and Transaction
Library guidance by the beginning of each fiscal year.

Furthermore, OUSD(C)/CFO and ODCMO personnel did not validate that GCSS–Army
had implemented over 300 changes to the DoD SCOA since FY  2011.                                                DoD
FMR, volume  1, chapter  1, states that OUSD(C)/CFO is responsible for ensuring
DoD-wide compliance with applicable accounting policy, standards, and principles,
which would include validating GCSS–Army compliance with the DoD SCOA. ODCMO
completed an initial SFIS validation of GCSS–Army on October 27, 2011, to support
OUSD(C)/CFO’s financial improvement efforts and has not performed a subsequent
revalidation of changes. Consequently, OUSD(C)/CFO and ODCMO have not validated
GCSS–Army implementation of the 154  changes in the FY  2012  DoD SCOA or
the 162  changes in the FY  2013  DoD SCOA.                                To ensure compliance with annual
guidance, the USD(C)/CFO, in coordination with the DCMO, should develop and
implement a process for the annual validation of the GCSS–Army COA to ensure
compliance with current DoD SCOA guidance.


Unable to Define System Posting Logic
OASA(FM&C) and PMO personnel did not require the GCSS–Army contractor to
develop and provide the system’s posting logic.                                       USD(C)/CFO Memorandum,
“Department              of    Defense       Standard        General        Ledger       Account    Alignment    and
Exemption Guidance,” June  3, 2013, required financial systems to process
transactions according to posting logic in the Transaction Library.                                    In addition,
Office of Federal Financial Management, “Core Financial System Requirements,”
January 2006, required core financial systems to provide automated functionality10
to “define standard transactions consistent with USSGL posting rules.”                                          The
FFMIA requires agencies to implement and maintain financial systems that comply
substantially with the Federal financial management system requirements.                                        TFM,
chapter 9500, “Revised Federal Financial Management System Requirements for
FY  2014 Reporting,” revised “Core Financial System Requirements,” but required
systems to capture account transaction information consistent with Treasury
account transaction codes.                      Although these requirements clearly articulate the
need for financial systems to be able to demonstrate posting logic compliance
with Treasury and DoD standards, PMO personnel stated that Army issued the


	 10	
        An automated functionality is a task performed by the system without manual intervention.




                                                                                                                   DODIG-2014-104 │ 11
Finding



                 development      contract    without     the    requirement    for
                                                                                          GCSS–Army
                 the contractor to develop an automated functionality
                                                                                        does not have
                 to define the system’s posting logic.            Consequently,         the automated
                 GCSS–Army does not have the automated functionality                   functionality to
                 to define or verify its posting logic.                               define or verify its
                                                                                         posting logic.

                 OASA(FM&C) and the PMO are responsible for ensuring
                 that GCSS–Army complies with applicable financial system
                 requirements, and OUSD(C)/CFO and ODCMO are responsible for validating the
                 system’s compliance. Without the capability to produce an automated functionality
                 to define the system’s posting logic, DoD and Army personnel would have to review
                 a significant number of GCSS–Army transactions occurring during any given period
                 and compare the posting logic to the Transaction Library to validate the posting logic.

                 The DoD OIG has issued multiple reports identifying the Army’s need for an
                 automated functionality to define system posting logic for its ERP systems.
                 Specifically, DoD OIG Report No. DODIG-2011-015, “Insufficient Governance Over
                 Logistics Modernization Program System Development,” November 2, 2010, and
                 DoD OIG Report No. DODIG-2013-130, “Army Needs to Improve Controls and Audit
                 Trails for the General Fund Enterprise Business System Acquire-to-Retire Business
                 Process,” September 13, 2013, found that two Army ERP systems, the Logistics
                 Modernization Program and GFEBS, did not have this automated functionality.
                 Logistics Modernization Program personnel stated they did not have the $265,000
                 available to develop this automated functionality.            GFEBS personnel created a
                 manually developed posting logic document to demonstrate how GFEBS posted
                 transactions. However, the DoD OIG reported that the manually developed posting
                 logic document did not accurately reflect what was occurring in GFEBS.               Since
                 the completion of the GFEBS audit, OASA(FM&C) has provided multiple manually
                 developed posting logic documents, and DoD OIG auditors have continued to identify
                 deficiencies with them.

                 As Army personnel prepare to meet the FYs  2014 and 2017 auditability deadlines,
                 they will have to develop a process for Army management and auditors to verify
                 how transactions post in GCSS–Army.            When DoD OIG auditors inquired into the
                 cost of developing an automated functionality to define the system posting logic,
                 OASA(FM&C) representatives responded that they were not aware of an analysis
                 to determine the cost of implementing this automated functionality to define the
                 GCSS–Army posting logic.        The Army should consider conducting a cost-benefit
                 analysis of developing this automated functionality in GCSS–Army or spending



12 │ DODIG-2014-104
As Army personnel prepare to meet the FYs 2014 and 2017 auditability deadlines, they
will have to develop a process for Army management and auditors to verify how                                                    Finding
transactions post in GCSS–Army. When DoD OIG auditors inquired into the cost of
developing an automated functionality to define the system posting logic, OASA(FM&C)
representatives responded that they were not aware of an analysis to determine the cost of
  resources each
implementing           year to functionality
                this automated      perform an         analysis
                                                  to define      similar to posting
                                                            the GCSS–Army        the analysis      the
                                                                                          logic. The
Army   should  consider   conducting    a cost-benefit  analysis of  developing   this
  DoD OIG auditors performed on the 786,092 transactions. The cost-benefit analysis    automated
functionality
  should alsointake
                  GCSS–Army       or spendingthat
                       into consideration        resources
                                                      futureeach year to perform
                                                              GCSS–Army      postinganlogic
                                                                                        analysis
                                                                                             analyses
similar to the analysis the DoD OIG auditors performed on the 786,092 transactions. The
  would include
cost-benefit       significantly
              analysis            more
                        should also   taketransactions,   because
                                            into consideration  thatPMO   personnel
                                                                      future GCSS–Army conservatively
                                                                                             posting
logic analyses
  estimate      would
              that       include significantly
                     GCSS–Army       will produce more transactions,
                                                        39  million because     PMO personnel
                                                                        transactions     annually or
conservatively   estimate when
  3.3 million monthly       that GCSS–Army       will produce
                                   fully deployed.      Figure 39 million transactions
                                                                2 illustrates  the increaseannually
                                                                                                in the
or 3.3 million monthly when fully deployed. Figure 2 illustrates the increase in the
  number of transactions during FY  2013 and the projected monthly volume when
number of transactions during FY 2013 and the projected monthly volume when the
  the Army
Army         fully deploys
       fully deploys         GCSS–Army.
                      GCSS–Army.

   Figure 2. Volume
      Figure        of GCSS–Army
              2. Volume          Transactions
                          of GCSS–Army        Will Increase
                                         Transactions   WillSignificantly
                                                              Increase Significantly
                3,300,000
                  500,000


                3,200,000
                  400,000
 Transactions




                  300,000
                 300,000


                 200,000
                 200,000


                  100,000
                 100,000


                       -




Source:
   Source:Based
             BasedononGCSS–Army
                         GCSS–Armytransactions
                                      transactionsinin
                                                     thethe
                                                          first three
                                                             first    quarters
                                                                   three        of FY
                                                                          quarters     2013 andand
                                                                                    of FY 2013   a PMO
                                                                                                    a PMOestimate of
                                                                                                            estimate
theofnumber   of transactions
      the number              that will
                     of transactions    occur
                                      that willwhen
                                               occurthewhenArmythefully
                                                                    Army deploys  GCSS–Army.
                                                                           fully deploys          The 3.3
                                                                                          GCSS–Army.   Themillion
   3.3 million
“Fully  Fielded”“Fully Fielded”istransactions
                   transactions                is the
                                   the 39 million      39 million
                                                   estimated        estimated
                                                                annual           annual
                                                                        transactions     transactions
                                                                                      divided         divided by
                                                                                              by 12 months.
   12 months.
With an automated functionality to define GCSS–Army posting logic, DoD and Army
  With an automated
management                functionality
              should be able             to define
                              to verify whether     GCSS–Army
                                                GCSS–Army        posting
                                                             provides      logic, reliable,
                                                                       complete,   DoD and
consistent, timely, and accurate
  Army management         should financial
                                   be ableinformation.
                                              to verify Inwhether
                                                          addition, itGCSS–Army
                                                                       would help auditors
                                                                                    provides
more efficiently
  complete,       and effectively
               reliable,          determine
                          consistent,       whether
                                        timely,  andGCSS–Army
                                                       accurate complied with financial
                   DRAFT In addition,
   financial information.    FOR OFFICIAL
                                      it would USE
                                                helpONLY
                                             10                                         An
   auditors more efficiently and effectively determine
                                                                                    automated
   whether GCSS–Army complied with financial                                    demonstration of
   system requirements. If auditors cannot verify                            compliance with financial
   posting logic through use of an automated                                reporting requirements . . .
                                                                             should reduce the overall
   functionality, they will have to test more                                 number of transactions
   transactions, which will be costly. An automated                        independent auditors would
                                                                              have to test in financial
                                                                                statement audits.


                                                                                                                       DODIG-2014-104 │ 13
Finding



                 demonstration of compliance with financial reporting requirements, combined
                 with effective system controls, should reduce the overall number of transactions
                 independent auditors would have to test in financial statement audits.             The
                 ASA(FM&C), in coordination with the GCSS–Army Product Manager, should
                 develop an automated functionality for demonstrating the account postings for
                 each business event in GCSS–Army.


                 Posting Logic Did Not Attain the Same Results as the
                 Transaction Library
                 OASA(FM&C) and PMO personnel did not field GCSS–Army with the posting logic
                 necessary to attain the same results as the Transaction Library. While GCSS–Army
                 is not required to store and maintain the exact DTC used in the Transaction Library for
                 each transaction, it is required to maintain a COA and use posting logic that
                 attains the same results as the Transaction Library for each business event. In the
                 absence of an automated functionality to define the system’s posting logic,
                 166  unique account combinations represented account groupings that should
                 have been consistent with one or more DTCs in the Transaction Library.

                 Of the 166 unique account combinations identified, PMO personnel identified
                 DTCs for 107 combinations but were unable to crosswalk the remaining
                 59  combinations to DTCs in the Transaction Library.        In
                 addition, PMO personnel stated that 43 of these
                                                                                       PMO
                 59 account combinations were unexpected and
                                                                                   personnel
                 should not have occurred in the system, affecting           stated that 43 of these
                 7,899    transactions      totaling   $18.1    million.    59 account combinations
                                                                              were unexpected and
                 On April 9, 2014, PMO personnel created a
                                                                           should not have occurred in
                 helpdesk ticket to correct the 43 combinations               the system, affecting
                 that should not have been occurring.             They         7,899 transactions
                 stated this change would correct the transactions                   totaling
                                                                                 $18.1 million.
                 that had already occurred along with the posting logic
                 for future transactions.

                 PMO personnel explained that the remaining 16  account combinations were
                 necessary to accommodate GCSS–Army unique transactions.            These combinations
                 deviated from Treasury and DoD guidance, but OASA(FM&C) and PMO personnel
                 did not submit documentation to the OUSD(C)/CFO for review as required by
                 Treasury guidance. On April 18, 2014, PMO personnel notified OASA(FM&C) of the
                 necessary account combinations for DoD and Treasury’s review. Table  2 illustrates
                 the PMO’s attempt to crosswalk the 166 account combinations to DTCs in the
                 Transaction Library.

14 │ DODIG-2014-104
                                                                                                                  Finding



Table 2. Results of the PMO’s Effort to Crosswalk Transactions to DTCs
                                                      No. of                   No. of       Amount
               PMO’s Diagnosis                     Combinations             Transactions   (millions)
 Compliant with the Transaction                          107                   611,538      $ 941.2
 Library
 Should Not Be Occurring                                   43                     7,899         18.1
 Provided Justification                                    16                  166,655        549.2
   Total                                                 166                   786,092      $1,508.5

Source: PMO personnel provided the information presented in PMO’s Diagnosis and No. of
Combinations columns. Auditors obtained the transactions and related amounts from GCSS–Army.

While PMO personnel identified DTCs for 107 account combinations as compliant
with Treasury and DoD guidance, the work completed to identify these 107  DTCs
was unreliable. In various instances, PMO personnel provided DTCs for an account
combination that did not match the accounts required in the Transaction Library.
For example, PMO personnel crosswalked one account combination, which occurred
2,565  times in the system, to two DTCs.11                              Although the Transaction Library
required the use of at least eight accounts for each of these DTCs, GCSS–Army used
only two accounts, an increase in Expenses (account 6790.9000) and a decrease in
Accounts Receivable (account 1310.9000). When questioned about the accuracy of
the crosswalk, PMO personnel provided a different DTC for the account combinations.
While the new DTC matched the account combinations, it took PMO personnel
149 days to correctly identify the DTC for this account combination. To help ensure
audit readiness, PMO personnel need to provide supporting documentation timely.

PMO personnel provided final results of their review of the 166 account combinations
on March 4, 2014. This was 253 days after auditors initially requested a review. The
review identified similar deficiencies in the account combinations, and GCSS–Army
was unable to attain the same results as the Transaction Library for each
business event.




	11	
       PMO personnel crosswalked this transaction to DTCs C136-004-13 and C138-001-21.




                                                                                                        DODIG-2014-104 │ 15
Finding



                 PMO personnel could not confirm compliance with DoD guidance in a timely
                 manner due to the lack of a crosswalk between the system transactions and
                 their corresponding DTCs.        OASA(FM&C) and PMO did not have a process for
                 reviewing posting logic compliance with Treasury and DoD guidance.                         The
                                         ASA(FM&C), in coordination with the GCSS–Army Product
                                              Manager,    should      create   and   maintain   a   crosswalk
                           OASA(FM&C)           between account combinations occurring in the system
                           and PMO did           and     the   DTCs    they    support.   In    addition,    the
                        not have a process
                                                 ASA(FM&C), in coordination with the GCSS–Army
                      for reviewing posting
                      logic compliance with      Product Manager, should formalize and expand the
                        Treasury and DoD         annual review process for GCSS–Army to ensure
                             guidance.          the system posting logic complies with Treasury and
                                              DoD guidance and request approval from DoD for any
                                          deviations from the Transaction Library guidance.

                 Furthermore, the FFMIA, CFO Act, and DoD FMR, volume  1, chapter  1,
                 addresses OUSD(C)/CFO’s responsibility for ensuring GCSS–Army complies with
                 accounting policy, standards, and principles and internal control standards.                To
                 address its responsibilities, the OUSD(C)/CFO must ensure GCSS–Army uses
                 posting logic that attains the same results as the Transaction Library, as required
                 by the USD(C)/CFO Memorandum, “Department of Defense Standard General
                 Ledger Account Alignment and Exemption Guidance,” June  3, 2013. As part of the
                 SFIS validation completed on October 27, 2011, ODCMO reviewed the posting logic
                 of 10 GCSS–Army transactions to baseline the system. However, ODCMO personnel
                 stated that they would not review the posting logic again until PMO personnel notify
                 ODCMO that a system change request has occurred. To ensure the implementation
                 of annual changes to the Transaction Library, and to comply with the FFMIA,
                 CFO Act, and DoD FMR, the USD(C)/CFO, in coordination with the DCMO, should
                 develop and implement a process for the annual validation of GCSS–Army
                 posting logic to ensure compliance with Treasury and DoD guidance.                         This
                 process should include a mechanism for review and approval of deviations
                 from the Transaction Library.           Furthermore, the USD(C)/CFO, in coordination
                 with the DCMO, should ensure the Transaction Library is complete and
                 contains all necessary GCSS–Army transaction combinations affecting the DoD
                 financial statements.




16 │ DODIG-2014-104
                                                                                                                                    Finding



Incorrect Posting Logic
OASA(FM&C) and PMO personnel did not configure GCSS–Army to correctly post
transactions for three accounts that affect the Statement of Budgetary Resources.
DoD FMR, volume  1, chapter  7, “United States Standard General Ledger,”
June 2009, required financial systems, including GCSS–Army, to process transactions
according to the posting logic in the Transaction Library.                                   Specifically, GCSS–Army
processed transactions for accounts 4170.9000, 4190.9000, and 4610.9000 using
posting logic that was noncompliant with the Transaction Library.                                          This incorrect
use of posting logic resulted in $703.7  million of abnormal balances, or 23.5  percent,
of the $3.0 billion GCSS–Army fourth quarter FY 2013 Trial Balance.

The FY  2012 DoD SCOA required entities to stop using account 4170.9000,
“Transfers-Current-Year                 Authority,”         and       begin        using       detail-level        accounts
4170.3102,            “Transfers-Current-Year               Authority        Transfers        In,”     and      4170.3103,
“Transfers-Current-Year Authority Transfers Out.”                               In addition, the FY  2012 DoD
SCOA disallowed reporting entities from using account 4190.9000, “Transfers
Prior-Year          Balances,”        in     favor     of     accounts        4190.3102,          “Transfers-Prior-Year
Balances Transfers In,” and 4190.3103, “Transfers-Prior-Year Balances Transfers
Out.”        Because these accounts were not approved for DoD
use, the FYs  2012 and 2013 Transaction Libraries did
not       prescribe         any      valid      transactions         using       the               According
                                                                                                to an OUSD(C)/
.9000 accounts.                  According to an OUSD(C)/CFO
                                                                                              CFO representative,
representative, the .9000 accounts did not provide                                            the .9000 accounts
the appropriate level of detail for financial reports,                                        did not provide the
including the Standard Form 133, “Report on Budgetary                                         appropriate level of
                                                                                               detail for financial
Execution and Budgetary Resources,”12 which rolls                                                    reports
up to the Statement of Budgetary Resources.

Even though the FY  2012 DoD SCOA and Transaction Library disallowed the use
of accounts 4170.9000 and 4190.9000, GCSS–Army continued to post transactions
to them for almost 2 more years.                            In response to COA changes recommended
by OASA(FM&C) on January  7, 2013, PMO personnel blocked accounts 4170.9000
and 4190.9000 and created accounts 4170.3102 and 4190.3103 on August  30, 2013,
to record transfers in and transfers out.                          According to PMO personnel, they used
Army guidance in the “Zero Balance Guide” in an attempt to change GCSS–Army
posting logic without causing abnormal balances.                                   Even though PMO personnel


	12	
       The Standard Form 133 displays budgetary resources and their status, changes in obligated balances, and outlays.




                                                                                                                          DODIG-2014-104 │ 17
Finding



                 stated they followed this guidance, $456.1  million of the $703.7  million of
                 abnormal balances resulted when PMO personnel remapped transactions from
                 the .9000 to the .3102 and .3103  accounts and transferred the account balances.
                 The ASA(FM&C), in coordination with the GCSS–Army Product Manager, should
                 review guidance in the “Zero Balance Guide,” along with any other guidance relevant
                 for correcting posting logic issues, to ensure the guidance correctly outlines a
                 process for remapping accounts without causing abnormal balances.

                 According to an OUSD(C)/CFO representative, the DoD
                 needs to report transfers in (.3102) and transfers                  For accounts
                 out (.3103) as unique items. However, for accounts                 4170 and 4190,
                                                                                    PMO personnel
                 4170 and 4190, PMO personnel programmed
                                                                                programmed the system
                 the system to use only one transfer account,                   to use only one transfer
                 regardless of whether the transaction was a                     account, regardless of
                 transfer in or out.   Without the ability to report            whether the transaction
                                                                                    was a transfer in
                 transfers in and transfers out as unique items,                         or out.
                 DoD may not have the information required to
                 prepare the Standard Form 133, which could cause a
                 misstatement of the Statement of Budgetary Resources.

                 OASA(FM&C)     and    PMO    personnel   also    used    incorrect    posting   logic     on
                 account 4610, “Allotments-Realized Resources,” causing abnormal balances of
                 $247.6  million.   According to PMO personnel, the abnormal balance occurred
                 when    GCSS–Army     automatically   transferred     fourth     quarter   allotments     to
                 account 4650, “Allotments-Expired Authority,” to prevent further obligations or
                 commitments during year-end closing.          An abnormal balance in account 4610
                 indicates obligations or commitments in excess of authority. Army uses account 4610
                 to prepare the Standard Form 133. Incorrect posting logic could cause a
                 misstatement of the Statement of Budgetary Resources. The ASA(FM&C), in
                 coordination with the GCSS–Army Product Manager, should publish guidance
                 outlining a process for performing year-end closing activities without causing
                 abnormal balances in the affected accounts.




18 │ DODIG-2014-104
                                                                                                     Finding



Inadequate System Controls
DoD and Army management did not have adequate
controls, including procedures and annual reviews,
                                                                      OUSD(C)/
in   place   to   ensure      GCSS–Army       compliance            CFO personnel
with Treasury and DoD guidance.           Specifically,           did not fulfill their
OASA(FM&C) and PMO personnel did not have                     oversight responsibilities
                                                                to ensure and validate
a complete, formalized annual review process to                system compliance with
ensure compliance with Treasury and DoD guidance.                    Treasury and
Furthermore, OUSD(C)/CFO personnel did not fulfill                  DoD guidance.
their oversight responsibilities to ensure and validate
system compliance with Treasury and DoD guidance,
as prescribed in the FFMIA, CFO Act, and DoD FMR, volume  1,
chapter 1 and volume 6A, chapter 2.

OUSD(C)/CFO personnel disagreed that their oversight and system compliance
responsibilities included ensuring and validating compliance with Treasury and
DoD guidance and stated their only system oversight responsibility was to issue
account   attribute,   COA,   and   posting    logic   guidance.   Although    DoD   FMR,
volume  1, chapter  1, requires OUSD(C)/CFO to ensure the system complies with
applicable accounting policy, standards, and principles and internal control
standards, OUSD(C)/CFO personnel explained it is the PMO’s responsibility to
validate and self-certify compliance with Treasury and DoD guidance.

However, pursuant to Paragraph 205(a) of the CFO Act, USD(C)/CFO “shall develop
and maintain an integrated agency accounting and financial management system,
including financial reporting and internal controls, which complies with applicable
accounting principles, standards, and requirements, and internal control standards.”
By definition, GCSS–Army is part of that integrated financial management system.
Therefore, USD(C)/CFO is responsible for GCSS–Army compliance.                Finally, even
though OUSD(C)/CFO personnel stated that ensuring and validating system
compliance with Treasury and DoD guidance is not their responsibility, they also
stated they are considering using independent public accounting firms to perform
SFIS validations for ERPs.       The decision to consider other options, such as
independent public accounting firms, resulted from ODCMO’s lack of adequate
resources to validate GCSS–Army compliance with applicable guidance.




                                                                                           DODIG-2014-104 │ 19
Finding



                 Inadequate DoD Guidance
                 OUSD(C)/CFO and ODCMO personnel did not provide adequate account attribute,
                 COA, or posting logic guidance.


                 Lack of Account Attribute Guidance
                 OUSD(C)/CFO and ODCMO personnel did not provide adequate guidance for the
                 implementation of SFIS account attributes.13 Specifically, OUSD(C)/CFO and ODCMO
                 personnel did not provide SFIS account attribute guidance for 80 accounts in the
                 DoD SCOA.               In addition, they did not provide guidance identifying which of the
                 46 SFIS account attributes with financial impact were applicable to each account
                 in the DoD SCOA.                  This occurred because OUSD(C)/CFO and ODCMO personnel
                 removed the SFIS account attribute guidance from the FY  2013 DoD Transaction
                 Library and replaced it with DDRS financial reporting guidance, which was
                 inadequate.             ODCMO personnel stated they removed the account attributes from
                                                   the FY  2013 DoD Transaction Library because the account
                                                       attributes related solely to the account and not to the
                             Deleting
                           the account                    transaction as a whole.                However, deleting the account
                       attributes from the                 attributes from the FY  2013 Transaction Library left a
                      FY 2013 Transaction                   void in account attribute guidance. OUSD(C)/CFO, in
                      Library left a void in
                        account attribute                  coordination with ODCMO, should annually develop
                            guidance.                     and publish SFIS account attribute guidance showing
                                                       which account attributes are applicable to each DoD account.


                 Inconsistent Guidance
                 OUSD(C)/CFO and ODCMO personnel did not have adequate controls and processes
                 to prevent inconsistencies between DoD and Treasury guidance. Specifically,
                 there were:

                                 •	 202 instances where the Transaction Library did not match the
                                    DoD SCOA, and

                                 •	 47      instances        where       the      Transaction         Library       did     not      match
                                    Treasury guidance.




                 	 13	
                         While neither OUSD(C)/CFO nor ODCMO publish guidance as to which SFIS account attributes were applicable to each
                         account, ODCMO personnel posted on their website guidance for reporting in DDRS.




20 │ DODIG-2014-104
                                                                                            Finding



The DoD SCOA and Transaction Library guidance establish the requirements
for the implementation of the USSGL in DoD financial systems and must be
consistent with Treasury guidance.       OUSD(C)/CFO and ODCMO representatives
stated OUSD(C)/CFO personnel participate on the Treasury Issue Resolution
Committee, which provides a forum for discussing potential issues between
Treasury and DoD guidance.       However, OUSD(C)/CFO and ODCMO representatives
did not have formal processes for reviewing and ensuring the consistency and
alignment of the three sets of guidance to Treasury guidance. Of the 249  instances
of inconsistency, OUSD(C)/CFO personnel:

        •	 corrected 225 instances in the FY 2014 DoD SCOA and Transaction Library.

        •	 stated 18  instances were errors in Treasury guidance and needed to be
           corrected. While OUSD(C)/CFO personnel communicated these instances
           to Treasury and participated in the Treasury Issue Resolution Committee,
           these inconsistencies remained between the two sources of guidance in
           FY 2014 and should be resolved.

        •	 stated the remaining 6 instances were to be corrected with the issuance
           of FY  2014 DoD guidance, but they were not. OUSD(C)/CFO personnel
           should correct these inconsistencies.

OUSD(C)/CFO personnel stated these 249 inconsistencies in guidance did not
directly affect GCSS–Army.      Due to GCSS–Army PMO’s inability to crosswalk all
GCSS–Army transactions to DTCs, the auditors were unable to determine
whether these inconsistent DTCs affected GCSS–Army transactions.        Regardless,
OUSD(C)/CFO personnel authorized systems to post transactions using the
inconsistent DTCs, undermining the effectiveness of controls over DoD ERPs.
This absence has the potential to affect the consistency of financial information
processed in other DoD ERPs.          The USD(C)/CFO, in coordination with the
DCMO, should review and formalize the controls and processes for ensuring the
DoD SCOA and Transaction Library guidance are consistent and align with
applicable Treasury guidance.


System Might Not Produce Reliable Information or
Correct Army’s Material Weakness
The Army’s inability to demonstrate that GCSS–Army can process financial
transactions in accordance with Treasury and DoD guidance raises doubt as to
whether the $725.7  million invested in GCSS–Army, as of February 2014, will
result in a system that can comply with FFMIA or assist the Army in:


                                                                                  DODIG-2014-104 │ 21
Finding



                         •	 resolving the AGF Financial Management Systems material weakness,

                         •	 meeting the FYs 2014 and 2017 auditability deadlines, or

                         •	 obtaining a favorable audit opinion.

                 In addition, incorrect posting logic for three budgetary accounts, which the Army
                 uses to prepare the Statement of Budgetary Resources, resulted in abnormal
                 balances of $703.7  million, or 23.5  percent, of the $3.0  billion GCSS–Army fourth
                 quarter FY 2013 Trial Balance.


                 Management Comments on the Finding and
                 Our Response
                 Although not required to comment, the Deputy Assistant Secretary of the Army
                 (Financial Operations) (DASA[FO]) provided comments on the finding. For summaries
                 of the DASA(FO)’s comments on the finding and our response, see Appendix C.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Under Secretary of Defense (Comptroller)/Chief
                 Financial   Officer,   DoD,   in   coordination    with    the   DoD   Deputy   Chief
                 Management Officer, comply with DoD Financial Management Regulation,
                 volume 1, chapter 1, which requires his Office to ensure system compliance
                 with accounting policy, standards, and principles and internal control
                 standards, through the following actions:

                        a.	 develop and implement processes to validate Global Combat Support
                             System–Army compliance by:

                             i.	annually    validating   Global    Combat    Support    System–Army’s
                                timely compliance with Treasury and DoD guidance for:

                                  1.	   account attributes,

                                  2.	   chart of accounts, and

                                  3.	   posting logic.




22 │ DODIG-2014-104
                                                                                           Finding



           ii.	 reviewing and approving any deviations from the Transaction
                Library.

          iii.	 ensuring the Transaction Library is complete and contains all
                necessary Global Combat Support System–Army transaction
                combinations affecting the DoD Financial Statements.

Under Secretary of Defense (Comptroller)/Chief Financial Officer Comments
The Deputy Chief Financial Officer (DCFO), responding for the USD(C)/CFO, did not
agree with the recommendations, stating that, in accordance with DoD guidance
controlling defense business system investments, the Component pre-certification
authority is responsible for preparing the certification of compliance with
established requirements and functionality.


Our Response
The DCFO’s response did not address the specifics of the recommendations.      We
agree with the DCFO comment that the Army is responsible for GCSS–Army
compliance with established requirements and certifying GCSS–Army compliance
with requirements.     However, DoD FMR volume 1, chapter 1, requires the
USD(C)/CFO to ensure GCSS–Army compliance with requirements.        Also, the CFO
Act requires the USD(C)/CFO provide oversight of GCSS–Army, as part of the
DoD financial management system.      However, the DCFO response did not address
how they would ensure GCSS–Army compliance.

While the DCFO did not agree with the recommendations, the DCFO developed
a plan of action that addresses Recommendation 1.a.i.      The OUSD(C)/CFO and
ODCMO engaged the Joint Interoperability Test Command to perform conformance
testing of financial management systems and address deficiencies reported in
recent DoD Inspector General reports on financial management systems. The DCFO
issued a memorandum titled “DoD United States Standard General Ledger and
Standard Financial Information Structure System Testing Requirement,” dated
July 14, 2014, outlining the testing initiative. On June 25, 2014, the OUSD(C)/CFO
briefed the Financial Improvement and Audit Readiness Subcommittee on the Joint
Interoperability Test Command Validation Program. The OUSD(C)/CFO presentation
stated that, after the initial year of validation, the Joint Interoperability Test
Command will assess new requirements in subsequent years.           Because DoD
publishes annual requirements, the assessment of new requirements will be
completed annually. The Joint Interoperability Test Command will test GCSS–Army
in FY 2016.



                                                                                 DODIG-2014-104 │ 23
Finding



                 The DCFO’s comments did not address Recommendations 1.a.ii and 1.a.iii because
                 they did not include any discussion of DoD Transaction Library deviations and
                 completeness.       Therefore, we request that the USD(C)/CFO provide further
                 comments to the final report addressing the review and approval of deviations from
                 the Transaction Library and Transaction Library completeness by October 3, 2014.

                         b.	 publish the following guidance by the beginning of each fiscal year with
                             a deadline for system implementation:

                             i.	 Standard Financial Information Structure account attribute,

                             ii.	 DoD Standard Chart of Accounts, and

                            iii.	 Transaction Library guidance.

                 Under Secretary of Defense (Comptroller)/Chief Financial Officer Comments
                 The DCFO, responding for the USD(C)/CFO, agreed, stating his office will publish
                 updated guidance for the SFIS, DoD SCOA, and Transaction Library annually, within
                 45 days of release of annual updates to the TFM USSGL supplement.                System
                 owners will be instructed to implement the updated guidance at the beginning of
                 each fiscal year.


                 Our Response
                 The DCFO’s comments addressed all specifics of the recommendations, and no further
                 comments are required.

                         c.	develop and publish consistent Standard Financial Information
                             Structure account attribute, DoD Standard Chart of Accounts, and
                             Transaction Library guidance that aligns with applicable Treasury
                             guidance.

                 Under Secretary of Defense (Comptroller)/Chief Financial Officer Comments
                 The DCFO, responding for the USD(C)/CFO, disagreed, stating that his office will
                 publish annual updates as indicated in their response to Recommendation 1.b.
                 He stated that they already publish consistent guidance and cited specific
                 DoD FMR guidance that requires the DoD SCOA and Transaction Library to align
                 with the TFM USSGL Supplement, Section I, “USSGL Chart of Accounts,” and
                 TFM USSGL Supplement, Section III, “USSGL Account Transactions,” respectively.




24 │ DODIG-2014-104
                                                                                                Finding



Our Response
The DCFO’s response partially addressed the recommendation, as indicated in
his response to Recommendation 1.b, where he agreed to issue annual guidance.
The DCFO comment that consistent standing guidance already exists is not
accurate. We agree the DoD FMR requires the DoD SCOA and Transaction Library
to align with the TFM USSGL Supplement, Section I, “USSGL Chart of Accounts,” and
Section III, “USSGL Account Transactions,” respectively.         However, our report
presented 249 instances where the standing annual DoD and Treasury guidance
were inconsistent, making this annual DoD guidance non-compliant with the DoD
FMR and Treasury.      As stated in the report, OUSD(C)/CFO and ODCMO personnel
did not have adequate controls and processes to prevent inconsistencies between
DoD and Treasury guidance. We request that the DCFO provide further comments to
the final report by October 3, 2014, on what controls will be implemented to prevent
inconsistencies between DoD and Treasury guidance.

       d.	 develop and publish annual Standard Financial Information Structure
           account attribute guidance showing which account attributes are
           applicable for each DoD account.

Under Secretary of Defense (Comptroller)/Chief Financial Officer Comments
The DCFO, responding for the USD(C)/CFO, agreed, stating he is developing
documentation which will identify appropriate SFIS data elements required to be
recorded for each account within the DoD SCOA.


Our Response
The DCFO’s comments addressed all specifics of the recommendation, and no further
comments are required.


Recommendation 2
We   recommend        that   the   Assistant   Secretary   of   the   Army   (Financial
Management and Comptroller), in coordination with the Global Combat
Support System–Army Product Manager:

       a.	 formalize and expand the annual review process for Global Combat
           Support System–Army to include a review of the timely compliance of:

           i.	    account attributes,

          ii.	    chart of accounts, and

          iii.	   posting logic.

                                                                                      DODIG-2014-104 │ 25
Finding



                 Assistant Secretary of the Army (Financial Management and
                 Comptroller) Comments
                 The DASA(FO), responding for the ASA(FM&C), agreed, stating that GCSS–Army
                 will formalize and expand the annual review process to ensure timely compliance
                 of all COA guidance to include account attributes, COA, and posting logic.                He
                 also stated that timely compliance and implementation is contingent upon
                 the   timely     receipt   of   the    DoD   SCOA    from       OUSD(C)/CFO.  Finally,    he
                 stated that, by the end of FY 2015, account attributes and posting logic
                 reviews   will    be   performed      concurrent   with   the    completion   of   SFIS   10
                 implementation and that Army will formalize and implement a process for a
                 continual review of account attributes and updates to posting logic documents
                 to ensure timely compliance.


                 Our Response
                 The DASA(FO)’s comments addressed all specifics of the recommendations, and no
                 further comments are required.

                        b.	 develop an automated functionality for demonstrating the account
                            postings for each business event in Global Combat Support
                            System–Army.

                        c.	 create and maintain a crosswalk between account combinations
                            occurring in the system and the DoD Transaction Codes they support.

                 Assistant Secretary of the Army (Financial Management and
                 Comptroller) Comments
                 The DASA(FO), responding for the ASA(FM&C), agreed with Recommendations 2.b
                 and 2.c. However, he responded that, in FY 2015, GCSS–Army personnel will launch
                 an effort for a manually prepared and maintained posting logic document rather
                 than develop an automated functionality. He explained that the Army was doubtful
                 that a comprehensive automated posting logic functionality with built-in crosswalks
                 to DoD transaction codes could be built in SAP, and if possible, such effort would
                 likely require prohibitive and costly outlays.      He also stated a manually prepared
                 and maintained posting logic document will crosswalk each business event to the
                 Transaction Library/DoD Transaction Codes.




26 │ DODIG-2014-104
                                                                                          Finding



Our Response
The DASA(FO)’s comments partially addressed Recommendation 2.b and addressed
all specifics of Recommendation 2.c.   An automated functionality to demonstrate
GCSS–Army posting logic document would be inherently more reliable and consistent
than a manually prepared posting logic document. The manual process proposed
by the Army to produce the posting logic document introduces an increased risk of
errors. In addition, the DASA(FO)’s comments indicate that the Army has concluded
not to develop the automated functionality without determining whether it is
possible or the associated cost of development.   We request that the ASA(FM&C)
reconsider this position for Recommendation 2.b and provide further comments
to the final report by October 3, 2014, indicating consideration for building the
automated posting logic in SAP.        No further comments are required for
Recommendation 2.c.

       d.	 develop and implement a process to request approval from DoD for
           any deviations from the Transaction Library guidance.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The DASA(FO), responding for the ASA(FM&C), agreed, stating that GCSS–Army
personnel implemented a process to request approval from DoD for any deviations
from the Transaction Library. He also stated that GCSS–Army has already submitted
currently known deviations to DASA(FO) for approval.


Our Response
The DASA(FO)’s comments addressed all specifics of the recommendation, and no
further comments are required.

       e.	 document a review of guidance in the “Zero Balance Guide,” along
           with any other guidance relevant for correcting posting logic issues,
           to ensure the guidance correctly outlines a process for remapping
           accounts without causing abnormal balances.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The DASA(FO), responding for the ASA(FM&C), agreed, stating that, beginning
in FY  2015, ASA(FM&C) will work with the GFEBS Project Manager and the
GCSS–Army Product Manager to review and update current guidance in the
“Zero Balance Guide.”


                                                                                DODIG-2014-104 │ 27
Finding



                 Our Response
                 The DASA(FO)’s comments addressed all specifics of the recommendation, and no
                 further comments are required.

                        f.	 publish guidance for performing year-end closing activities in
                            account 4610 without causing abnormal balances.

                 Assistant Secretary of the Army (Financial Management and
                 Comptroller) Comments
                 The DASA(FO), responding for the ASA(FM&C), disagreed, stating that full
                 implementation of the recommendation will require a major change to the SAP
                 system functionality that must also be implemented in GFEBS as well, if at all feasible,
                 and at considerable cost to both systems.       He explained that a normal (credit)
                 balance existed in account 4610 throughout the year and until moments before
                 September 30 year-end close out and that this procedure is also a SAP system
                 standard for all Federal Public Sector entities that handle single year quarterly
                 apportioned funds.    The DASA(FO) stated the Army will reassess the postings to
                 determine if there are other alternatives that will not lead to abnormal balances
                 in account 4610. He stated that a review, in concert with GFEBS, will take place in
                 FY 2015. However, he also stated there may not be an alternative through which
                 this recommended change could be made to work or its cost could be justified.


                 Our Response
                 The DASA(FO)’s response did not address the specifics of the recommendation.
                 We agree with the DASA(FO)’s planned efforts to determine whether there is an
                 alternative through which closing activities in account 4610 could be made without
                 causing abnormal balances.       However, the DASA(FO)’s response did not address
                 the publication of guidance for performing year-end closings in account 4610
                 without causing abnormal balances.      We request the ASA(FM&C) provide further
                 comments to the final report by October 3, 2014, on when ASA(FM&C) will
                 publish guidance for performing year-end closing activities in account 4610
                 without causing abnormal balances.




28 │ DODIG-2014-104
                                                                                             Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from June 2013 through May 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

We conducted site visits at Fort Bliss, Texas; Fort Irwin, California; and Fort Lee,
Virginia, to interview Army Training and Doctrine Command, Forces Command,
and Combined Arms Support Command personnel. We also communicated with
personnel from OUSD(C)/CFO, ODCMO, OASA(FM&C), Army PEO EIS, Army
Enterprise    Systems   Integration   Program-Program        Management   Office,   GFEBS
Program Management Office, and the Defense Finance and Accounting Service. We
obtained an understanding of the functional roles and responsibilities in relation
to the creation and maintenance of the SFIS account attributes, DoD SCOA, and
Transaction Library, along with the GCSS–Army COA and posting logic.

We requested PMO personnel provide a:

        •	 crosswalk between GCSS–Army account attributes and Treasury guidance.
             We tested 15 of the 21 GCSS–Army account attributes. For the other six
             attributes, PMO personnel did not provide information timely for us to
             review.

        •	 review of the 166 unique account combinations that we identified and
             crosswalk them to the appropriate DTCs.

We also examined GCSS–Army transactions for compliance with FY  2013 Treasury
and DoD guidance to determine whether the system provided DoD management with
reliable financial information. Specifically, we examined:

        •	 15 account attributes against the universe of 786,092 transactions that
             occurred in the first three quarters of FY  2013 to determine compliance
             with applicable Treasury guidance,

        •	 the GCSS–Army COA to determine compliance with DoD SCOA guidance,




                                                                                        DODIG-2014-104 │ 29
Appendixes



                         •	 166 account combinations representing the 786,092 transactions that
                            occurred in the first three quarters of FY  2013 to determine compliance
                            with Treasury and DoD guidance, and

                         •	 the fourth quarter FY  2013 DDRS Trial Balance to determine whether
                            GCSS–Army transactions generated abnormal balances.

                 In addition, we compared the FY  2013 SFIS account attribute, DoD SCOA, and
                 Transaction Library to identify any inconsistencies.      We also compared these to
                 applicable Treasury guidance to identify any inconsistencies and determine whether
                 DoD guidance complied with Treasury guidance.

                 PMO personnel did not provide GCSS–Army information timely.            The PMO took
                 an average of 46 days to provide requested documentation and information. This
                 occurred because the Army PEO EIS established a lengthy approval and coordination
                 process for GCSS–Army information requested by the auditors.             This process
                 involved 12 other DoD and Army organizations that needed to review and approve
                 any documentation provided to the auditors.       With the current approval process,
                 Army will not be able to provide documentation in a timely manner to the auditors.


                 Use of Computer-Processed Data
                 To perform this audit, we used FY 2013 GCSS–Army transactional data, trial
                 balances, and COAs.     We validated the accuracy of the GCSS–Army COA, account
                 attributes, and posting logic against guidance.        We used this information to
                 determine whether the Army complied with Treasury and DoD requirements
                 when developing and deploying GCSS–Army.         Through this analysis, we identified
                 accounts, attributes, and transactions that did not comply with guidance. The data
                 reliability issues we identified are discussed in the finding.    We determined the
                 computer-processed data we used were sufficiently reliable to support the audit finding
                 and conclusions in this report.


                 Use of Technical Assistance
                 We did not use technical assistance in conducting this audit.




30 │ DODIG-2014-104
                                                                                           Appendixes




Appendix B
Prior Coverage
During the last 5  years, the Government Accountability Office (GAO) and the DoD
OIG, and the U.S. Army Audit Agency (AAA) issued 27 reports related to GCSS–Army
or SFIS.     Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted DoD  OIG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.
Unrestricted Army reports can be accessed at http://www.army.mil/aaa.


GAO
GAO Report No.  GAO-13-557, “DOD BUSINESS SYSTEMS MODERNIZATION: Further
Actions Needed to Address Challenges and Improve Accountability,” May 2013

GAO   Report      No.  GAO-12-685,   “DOD    BUSINESS    SYSTEMS     MODERNIZATION:
Governance Mechanisms for Implementing Management Controls Need to Be
Improved,” June 2012

GAO Report No.  GAO-12-177T, “DOD FINANCIAL MANAGEMENT: Challenges in
the Implementation of Business Systems Could Impact Audit Readiness Efforts,”
October 2011

GAO Report No.  GAO-11-933T, “DOD FINANCIAL MANAGEMENT: Improved Controls,
Processes, and Systems Are Needed for Accurate and Reliable Financial Information,”
September 2011

GAO Report No.  GAO -11-684, “DEPARTMENT OF DEFENSE: Further Actions Needed
to Institutionalize Key Business System Modernization Management Controls,”
June 2011

GAO Report No.  GAO-11-139, “DEFENSE LOGISTICS: Additional Oversight and
Reporting   for    the   Army   Logistics   Modernization   Program     Are    Needed,”
November 2010

GAO Report No.  GAO-11-53, “DOD BUSINESS TRANSFORMATION: Improved
Management     Oversight   of   Business    System   Modernization   Efforts   Needed,”
October 2010

GAO Report No.  GAO-10-1059T, “DEPARTMENT OF DEFENSE: Financial Management
Improvement and Audit Readiness Efforts Continue to Evolve,” September 2010



                                                                                      DODIG-2014-104 │ 31
Appendixes



                 GAO Report No.  GAO-10-695, “DEPARTMENT OF DEFENSE: Additional Actions
                 Needed to Improve Financial Management of Military Equipment,” July 2010


                 DoD IG
                 DoD IG Report No.  DODIG-2013-130, “Army Needs to Improve Controls and Audit
                 Trails for the General Fund Enterprise Business System Acquire-to-Retire Business
                 Process,” September 2013

                 DoD IG Report No.  DODIG-2013-057, “Enterprise Business System Was Not
                 Configured to Implement the U.S. Government Standard General Ledger at the
                 Transaction Level,” March 2013

                 DoD IG Report No.  DODIG-2012-140, “An Unreliable Chart of Accounts Affected
                 Auditability of Defense Enterprise Accounting and Management System Financial
                 Data,” September 2012

                 DoD IG Report No.  DODIG-2012-111, “Enterprise Resource Planning Systems
                 Schedule Delays and Reengineering Weaknesses Increase Risks to DoD's Auditability
                 Goals,” July 2012

                 DoD IG Report No.  DODIG-2012-066, “General Fund Enterprise Business System
                 Did Not Provide Required Financial Information,” March 2012

                 DoD IG Report No.  DODIG-2012-051, “Navy Enterprise Resource Planning System
                 Does Not Comply With the Standard Financial Information Structure and
                 U.S. Government Standard General Ledger,” February 2012

                 DoD IG Report No.  DODIG-2011-015, “Insufficient Governance Over Logistics
                 Modernization Program System Development,” November 2010


                 Army
                 AAA Report No.  A-2012-0177-FMR, “Examination of Federal Financial Management
                 Improvement Act Compliance—Requirements Baseline Revalidation: Global Combat
                 Support System–Army,” September 2012

                 AAA Report No.  A-2012-0153-FMR, “Examination of the General Fund Enterprise
                 Business System—Federal Financial Management Improvement Act Compliance:
                 Examination Requirements Through Test Event 1.4.4,” August 2012




32 │ DODIG-2014-104
                                                                                   Appendixes



AAA Report No.  A-2012-0123-FMR, “Examination of Federal Financial Management
Improvement Act Compliance Validation: Logistics Modernization Program System
Third Deployment—Selected Requirements,” July 2012

AAA Report No.  A-2012-0090-FFM, “Audit Readiness: Statement of Budgetary
Resources–Appropriations Received,” April 2011

AAA Report No.  A-2011-0012-FFR, “Examination of Federal Financial Management
Improvement Act of 1996 Compliance—Business Processes: Global Combat Support
System–Army Release 1.1,” October 2010

AAA Report No.  A-2010-0187-FFM, “General Fund Enterprise Business System—
Federal Financial Management Improvement Act Compliance: Examination of
Requirements Through Test Event 1.4.0,” September 2010

AAA Report No.  A-2010-0220-FFM, “Examination of Federal Financial Management
Improvement Act Compliance—Requirements: Logistics Modernization Program
System, Third Deployment,” September 2010

AAA Report No.  A-2009-0224-FFM, “Examination of Federal Financial Management
Improvement Act Compliance—Requirements: Global Combat Support System–Army
Release 1.1,” September 2009

AAA Report No.  A-2009-0226-FFM, “Examination of Federal Financial Management
Improvement Act Compliance—Test Validation: General Fund Enterprise Business
System Release 1.2,” September 2009

AAA Report No.  A-2009-0231-FFM, “General Fund Enterprise Business System—
Federal Financial Management Improvement Act Compliance: Examination of Release
1.3 Functionality,” September 2009

AAA Report No.  A-2009-0232-FFM, “General Fund Enterprise Business System—
Federal Financial Management Improvement Act Compliance: Examination of
Releases 1.4.1, 1.4.2, 1.4.3, and 1.4.4 Requirements,” September 2009




                                                                              DODIG-2014-104 │ 33
Appendixes




                 Appendix C
                 Army Comments on Findings and Our Response
                 The DASA(FO)’s comments below discuss additional details and comments related to
                 the audit results and findings.


                 Management Comments on Insufficient Implementation of
                 Treasury and DoD Financial Reporting Requirements
                 The DASA(FO) commented that there is a significant time lag between publishing
                 of USSGL requirements (which are updated at least annually) and publishing
                 of corresponding SFIS updates.           OSD(C)/CFO needs to have a process for those
                 updates to flow into SFIS requirements and from there to DoD financial systems,
                 such as GCSS–Army.       The current process, from Treasury adding or changing
                 attributes to them being available in GCSS–Army, takes too long for the attributes
                 to be available on October 1.            Until DoD documents a process and the DoDIG
                 accepts that process, there will continue to be a disconnect between reality
                 and expectation.


                 Our Response
                 We agree with the DASA(FO)’s comments, and we addressed this issue in
                 Recommendation 1.b, which was directed to OUSD(C)/CFO.                      The DCFO agreed
                 with the recommendation and outlined the action his office will take.


                 Management Comments on Account Attributes Not Compliant
                 with Treasury Guidance
                 The DASA(FO) stated that GCSS–Army will be upgraded with SFIS 9 on or before
                 September 30, 2014, and SFIS 10 later in FY 2015 in coordination with GFEBS. The
                 SFIS 9 updates will include rules that will not only remedy and correct the errors
                 noted in four attributes, but will also bring GCSS–Army into SFIS 9 compliance.
                 With the implementation of the SFIS 10 upgrade in late FY  2015, the “Prior
                 Year   Adjustment    Code”     attribute       will   be   captured   and   reported   making
                 GCSS–Army     100    percent      SFIS    10     compliant.     When    Army    accomplishes
                 SFIS compliance, GCSS–Army account attribute rules will comply with Treasury
                 guidance allowing GCSS–Army to process transactions and report correctly.




34 │ DODIG-2014-104
                                                                                              Appendixes



Our Response
While the implementation of this account attribute guidance will not be completed
timely, we recognized in our report the Army’s plan to become compliant.              We
commend the DASA(FO) for actions taken to upgrade GCSS–Army that are intended
to correct the attribute errors identified during the audit and bring the system
into compliance.


Management Comments on Account Inconsistencies With
DoD Guidance
The DASA(FO) stated that the current version of the Abnormal Balance Report is
not reliable and is being modified with an updated GFEBS design that will improve
its accuracy and relevance. The report will be updated in FY 2015. However, in
accordance with the audit recommendation, GCSS–Army has corrected NBIs on
14 of 16 accounts per DoD guidance.         Accounts 3106 and 4190 with credit and
debit NBIs, respectively, the same as in GFEBS, are not in conformance with
DoD guidance, which require debit in account 3106 and credit in account 4190.
PMO personnel are not going to correct the NBI for these two accounts. The current
NBIs must remain so as to preserve master data alignment between the GFEBS and
GCSS–Army systems and to ensure that all financial accounting and reporting is
conducted consistently, correctly, completely, accurately, and timely.


Our Response
We agree with Army’s actions taken and plan to improve the accuracy and relevance
of the Abnormal Balance Report.         However, the Army should request Treasury
and DoD approval of NBI guidance deviations for accounts 3106 and 4190,
similar to the process set forth in Recommendation 2.d.                  ASA(FM&C) would
“submit an issue to the USSGL Board through the agency’s USSGL representative
[OUSD(C)/CFO]” to seek approval for transactions not already considered.


Management Comments on Posting Logic Did Not Attain the
Same Results as the Transaction Library
The DASA(FO) disagreed with the comment that the work completed to identify
items that were compliant with the Transaction Library was unreliable.                 He
stated that the auditors did not provide details in support of the comment and,
therefore, this comment lacks balance. He concluded that if the auditors performed
the audit work in accordance with generally accepted auditing standards, there
would be no question as to the reliability of the GCSS–Army data.              Finally, he




                                                                                         DODIG-2014-104 │ 35
Appendixes



                 explained that USSGL recognizes there are valid deviations from the guidance.
                 However, the DoDIG has not recognized the uniqueness of the GCSS–Army ERP
                 and has not taken into consideration nor examined the underlying business case
                 that has led to these valid deviations.


                 Our Response
                 We performed the audit in accordance with generally accepted government
                 auditing standards for performance audits.     We planned and performed the audit
                 to obtain sufficient, appropriate evidence to provide a basis for our findings and
                 conclusions based on our objective.        Generally accepted government auditing
                 standards defines reliability as referring “to the consistency of results when
                 information is measured or tested and includes the concepts of being verifiable
                 or supported.”    We obtained evidence showing three attempts by PMO personnel
                 to determine which transactions were compliant with DoD Transaction Library
                 guidance and which were not.          The number of compliant and non-compliant
                 transactions significantly changed between attempts and this raised doubt as to
                 the reliability of the work completed. We recognize the difficulties PMO personnel
                 experienced attempting to determine whether posting logic is compliant with
                 guidance. Implementation of our recommendations would reduce these difficulties.

                 We acknowledge that USSGL Account Transactions Guidance recognizes that there
                 are valid accounting postings, identified in this report as account combinations,
                 not yet documented and that agencies may engage in financial activity that
                 the USSGL Board has not yet addressed.            However, the Guidance requires
                 agencies to “submit an issue [account combination] to the USSGL Board through
                 the agency’s USSGL representative.”

                 We did not determine whether the 166 unique account combinations in
                 GCSS–Army were USSGL compliant or whether these combinations should have
                 been used in GCSS–Army.         PMO personnel made the determination and provided
                 results showing that 16 of the 166 account combinations were not compliant
                 with USSGL but were necessary to accommodate GCSS–Army unique transactions.
                 However, the PMO did not submit these through ASA(FM&C) to the OUSD(C)/CFO,
                 the agency’s USSGL representative.         In addition, PMO personnel made the
                 determination and provided results showing that 43 of the 166 account combinations
                 should not have occurred in GCSS–Army. Our report acknowledges that GCSS–Army
                 PMO personnel have taken actions to correct these problems.           The Army’s
                 implementation of our recommendations will help to prevent, detect, and correct
                 these problems in the future.



36 │ DODIG-2014-104
                                                                                      Appendixes



Management Comments on Incorrect Posting Logic
The   Army    agreed   with   the   recommendation   about   accounts   4170.3102,
4170.9000, 4190.3103, and 4190.9000.       GCSS–Army will take steps to correct
and change posting logic in accordance with DoD SCOA in FY 2015 after Army’s
approval and in coordination with GFEBS.         This will accomplish required
intragovernmental eliminations.


Our Response
We commend the DASA(FO) for the Army’s planned actions to correct and change
posting logic to comply with DoD SCOA.




                                                                                 DODIG-2014-104 │ 37
Management Comments




                 Management Comments
                 Under Secretary of Defense (Comptroller)/Chief
                 Financial Officer, DoD




38 │ DODIG-2014-104
                                                                                                Management Comments



Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD (cont’d)
                       DOD IG DRAFT REPORT – DATED JUNE 18, 2014
                        DOD IG PROJECT NO. D2013-D000FL-0163.000

        “GLOBAL COMBAT SUPPORT SYSTEM – ARMY DID NOT COMPLY WITH
           TREASURY AND DOD FINANCIAL REPORTING REQUIREMENTS”

           OFFICE OF THE UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                (OUSD(C)) RESPONSE TO DOD IG RECOMMENDATIONS

  RECOMMENDATION 1: We recommend that the Under Secretary of Defense
  (Comptroller)/Chief Financial Officer, DoD, in coordination with the DoD Deputy Chief
  Management Officer, comply with DoD Financial Management Regulation, volume 1,
  chapter 1, which requires his office to ensure system compliance with accounting
  principles, standards, and requirements and with internal control standards, through the
  following actions:

         a. Develop and implement processes to validate Global Combat Support
            System-Army compliance by:
                i. annually validating Global Combat Support System-Army’s timely
                   compliance with Treasury and DoD guidance for:
                       1. account attributes
                       2. chart of accounts
                       3. posting logic
               ii. reviewing and approving any deviations from the Transaction Library.
              iii. ensuring the Transaction Library is complete and contains all necessary
                   Global Combat Support System-Army transaction combinations affecting
                   the DoD Financial Statements.

  OUSD(C) RESPONSE: Non-concur. In accordance with DoD guidance controlling Defense
  Business System (DBS) investments, the certification of compliance with established
  requirements and functionality is a responsibility of the component pre-certification authority
  (PCA). The component is required to prepare a standard certification package which is
  subsequently provided to the DoD Investment Review Board. The component PCA is
  responsible for preparing certification of compliance; validating compliance with requirements,
  policies, and law; and ensuring the system transaction library is complete.

         b. Publish the following guidance by the beginning of each fiscal year with a
            deadline for system implementation:
                i. Standard Financial Information Structure (SFIS) account attribute
               ii. DoD Standard Chart of Accounts (SCOA), and
              iii. Transaction Library guidance.

  OUSD(C) RESPONSE: Concur. OUSD(C) will comply with the recommendation and publish
  updated guidance for the SFIS, DoD SCOA, and Transaction Library annually, within 45 days of
  release of annual updates to the Treasury Financial Manual (TFM) U.S. Government Standard
  General Ledger (USSGL) supplement (typically released in summer). System owners will be
  instructed to implement the updated guidance at the beginning of each fiscal year.

                                                                                       Attachment




                                                                                                      DODIG-2014-104 │ 39
Management Comments



                 Under Secretary of Defense (Comptroller)/Chief
                 Financial Officer, DoD (cont’d)
                             c. Develop and publish consistent Standard Financial Information Structure
                                account attribute, DoD Standard Chart of Accounts, and Transaction Library
                                guidance that aligns with applicable Treasury guidance.

                      OUSD(C) RESPONSE: Non-concur. We will publish annual updates as indicated in our
                      response to Recommendation 1.b., but we have already published consistent standing guidance.
                      The DoD Financial Management Regulation (FMR) Volume 1, Chapter 7, Paragraph 070201
                      aligns DoD SCOA with the TFM USSGL Supplement, Section I, “USSGL Chart of Accounts.”
                      Paragraph 070203 of the same DoD FMR chapter aligns the DoD Transaction Library with TFM
                      USSGL Supplement, Section III, “USSGL Account Transactions.”

                             d. Develop and publish annual Standard Financial Information Structure account
                                attribute guidance showing which account attributes are applicable for each
                                DoD account.

                      OUSD(C) RESPONSE: Concur. The DCFO is currently developing documentation which will
                      identify appropriate SFIS data elements required to be recorded for each account within the DoD
                      SCOA. The documentation will provide standard guidance on appropriate actions to take when a
                      transaction is posted. The documentation will be published in conjunction with the DoD SCOA
                      and Transaction Library, and it will be updated at the same time as those documents to maintain
                      consistency between the DoD SCOA, the Transaction Library, and the SFIS data elements.




                                                                    2




40 │ DODIG-2014-104
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller)




                                                     DODIG-2014-104 │ 41
Management Comments



                 Assistant Secretary of the Army (Financial Management
                 and Comptroller) (cont’d)




42 │ DODIG-2014-104
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller) (cont’d)




                                                     DODIG-2014-104 │ 43
Management Comments



                 Assistant Secretary of the Army (Financial Management
                 and Comptroller) (cont’d)




44 │ DODIG-2014-104
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller) (cont’d)




                                                     DODIG-2014-104 │ 45
Management Comments



                 Assistant Secretary of the Army (Financial Management
                 and Comptroller) (cont’d)




46 │ DODIG-2014-104
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller) (cont’d)




                                                     DODIG-2014-104 │ 47
Management Comments



                 Assistant Secretary of the Army (Financial Management
                 and Comptroller) (cont’d)




48 │ DODIG-2014-104
                                               Management Comments



Assistant Secretary of the Army (Financial Management
and Comptroller) (cont’d)




                                                     DODIG-2014-104 │ 49
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                               AGF Army General Fund
                       ASA(FM&C) Assistant Secretary of the Army (Financial Management and Comptroller)
                               COA Chart of Accounts
                         DASA(FO) Deputy Assistant Secretary of the Army (Financial Operations)
                              DCFO Deputy Chief Financial Officer
                             DCMO Deputy Chief Management Officer
                              DDRS Defense Departmental Reporting System
                               DTC DoD Transaction Code
                               ERP Enterprise Resource Planning
                             FFMIA Federal Financial Management Improvement Act of 1996
                              FMR Financial Management Regulation
                       GCSS–Army Global Combat Support System–Army
                             GFEBS General Fund Enterprise Business System
                               NBI Normal Balance Indicator
                      OASA(FM&C) Office of the Assistant Secretary of the Army (Financial Management and Comptroller)
                           ODCMO Office of the Deputy Chief Management Officer
                      OUSD(C)/CFO Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
                            PEO EIS Program Executive Office Enterprise Information Systems
                              SCOA Standard Chart of Accounts
                               SFIS Standard Financial Information Structure
                               TFM Treasury Financial Manual
                       USD(C)/CFO Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
                             USSGL U.S. Government Standard General Ledger




50 │ DODIG-2014-104
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
